OFFICE OF AUDIT
REGION 9
 f
LOS ANGELES, CA




               Office of Native American Programs,
                         Washington, DC




2012-LA-0005                               SEPTEMBER 28, 2012
                                                        Issue Date: September 28, 2012

                                                        Audit Report Number: 2012-LA-0005




TO:            Rodger J. Boyd, Deputy Assistant Secretary, Office of Native American
               Programs, PN




FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA


SUBJECT:       HUD’s Office of Native American Programs Did Not Provide Adequate
               Oversight To Ensure Grantee Compliance With Annual Audit Report Submission
               Requirements


         Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of HUD’s Office of Native American
Programs (ONAP) annual audit reporting process. The review was initiated primarily in
response to complaints that ONAP did not take appropriate enforcement action for two grantees
that failed to submit required annual audits.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(213) 534-2471.
                                             September 28, 2012
                                             HUD’s Office of Native American Programs Did Not
                                             Provide Adequate Oversight To Ensure Grantee
                                             Compliance With Annual Audit Report Submission
                                             Requirements


Highlights
Audit Report 2012-LA-0005


 What We Audited and Why                      What We Found

We completed a review of the U.S.       ONAP did not implement consistent procedures to
Department of Housing and Urban         ensure compliance with the annual audit report
Development’s (HUD) Office of Native submission requirements. Specifically, it did not
American Programs’ (ONAP) annual
audit reporting process primarily in       • Implement controls to consistently monitor
response to complaints that ONAP did           grantees’ audit reporting compliance,
not take appropriate enforcement action
for two grantees that failed to submit     • Obtain required audit reports from tribally
required annual audits.                        designated housing entities when an associated
                                               tribe submitted an audit, and
Our objective was to determine whether
ONAP provided adequate oversight of        • Consistently enforce the statutory audit
its grantees nationwide to ensure              submission deadline.
grantee compliance with the annual
audit report submission requirements.

 What We Recommend

We recommend that the Deputy
Assistant Secretary, Office of Native
American Programs, (1) pursue
enforcement or corrective action for
delinquent audit reports, (2) update the
Performance Tracking Database (PTD)
system to ensure audit reporting
compliance for all grantees, (3) review
reports not reported in the PTD system,
(4) implement controls to ensure
adequate oversight of grantee audit
reporting, (5) discontinue the practice of
accepting tribe audits in lieu of required
tribally designated housing entity
audits, and (6) begin enforcing the
required audit submission deadline.
                           TABLE OF CONTENTS

Background and Objective                                                     3

Results of Audit
      Finding: ONAP Did Not Provide Adequate Oversight To Ensure Grantee
               Compliance With Annual Audit Report Submission Requirements   5

Scope and Methodology                                                        11

Internal Controls                                                            12

Appendixes
A.    Auditee Comments and OIG’s Evaluation                                  13
B.    Detailed Results of OIG’s Review Sample                                39
C.    Criteria                                                               45




                                           2
                      BACKGROUND AND OBJECTIVES

The U.S. Department of Housing and Urban Development’s (HUD) Office of Native American
Programs (ONAP) administers housing and community development programs for the benefit of
American Indian and Alaska Native tribal governments, tribal members, the Department of
Hawaiian Home Lands, Native Hawaiians, and other Native American organizations. As part of
its oversight of these programs and in accordance with Office of Management and Budget
(OMB) Circular A-133, ONAP is responsible for ensuring that grantees submit required annual
audit reports in a timely manner. Also, OMB Circular A-123, issued under the authority of the
Federal Managers’ Financial Integrity Act of 1982 as codified in 31 U.S.C. (United States Code)
3512, specified that HUD management was responsible for developing and maintaining internal
control to achieve the objectives of effective and efficient operations, reliable financial reporting,
and compliance with applicable laws and regulations. ONAP’s Grants Evaluation Guidebook
describes the policies and controls ONAP has established for its six field offices to monitor and
enforce grantee audit reporting requirements.




ONAP grant funds are administered by tribes or by separate tribally designated housing entities
selected by the tribes. In accordance with the Single Audit Act (31 U.S.C. 75) and OMB
Circular A-133, an independent audit is required if these entities expend Federal funds equal to
or in excess of $500,000.

ONAP relies on grantee audits to provide information about the grantee’s financial situation, use
of resources, internal controls, and compliance with HUD requirements. ONAP’s Grants
Evaluation Guidebook notes that these reports are ONAP’s primary source of data on a
recipient’s financial position and internal controls. Findings identified in audit reports provide
information necessary for ONAP to accurately complete its grantee risk assessment process and
plan its onsite monitoring strategies. Missing audit reports could be an indication of possible
fraud or abuse, increasing risk to the program.




                                                  3
Our overall objective was to determine whether ONAP provided adequate oversight of its
grantees to ensure compliance with annual audit report submission requirements.




                                              4
                                RESULTS OF AUDIT


Finding: ONAP Did Not Provide Adequate Oversight To Ensure
         Grantee Compliance With Annual Audit Report Submission
         Requirements
ONAP did not implement adequate and consistent procedures to monitor grantees’ compliance
with annual audit report submission requirements. Specifically, it did not (1) implement controls
to consistently monitor grantees’ audit reporting compliance, (2) obtain required audit reports
from tribally designated housing entities in some cases when the associated tribe submitted an
audit, and (3) consistently enforce the required audit submission deadline. This condition
occurred because ONAP lacked adequate policies and procedures, did not implement consistent
controls over grantee audit reporting, and allowed varied procedures among the six ONAP field
offices. As a result, ONAP could not readily identify delinquent audit reports and did not have
adequate assurance that its grant funds were expended in accordance with HUD’s program
requirements.


 ONAP Lacked Consistent
 Controls To Monitor Grantee
 Audit Submissions

              ONAP did not have adequate controls in place to consistently monitor audit report
              submissions and readily identify delinquent audit reports. ONAP’s Grants
              Evaluation Guidebook requires that ONAP field office staff use a centralized
              database system, the Performance Tracking Database (PTD), to enter expected
              audit receipt dates and record audit submissions to allow ONAP to monitor
              delinquent audit reports. It further requires that staff document all missed grantee
              deadlines and the grantees’ explanations for delays. The guidebook notes that
              missing audits could be a sign that a grantee wishes to avoid detection of serious
              irregularities or noncompliance with regulations or avoid monitoring or sanctions
              by HUD.

              ONAP did not consistently implement its guidebook requirements because field
              office staff did not always update the PTD system as required. As a result, the
              system did not include sufficient information to document grantees’ compliance
              with the audit reporting requirements. For example,

                  •   Three of the six ONAP field offices created a record in the PTD system
                      only for audit reports that had already been received. Therefore, the
                      system did not have a complete record of missing or delinquent audit
                      reports.




                                                5
                      •    Three of the six ONAP field offices did not update the PTD system to
                           indicate which grantees were exempt from the audit requirements due to
                           the $500,000 expenditure threshold. Because the PTD system did not
                           have a record indicating compliance for such grantees, it was not evident
                           whether the grantees were exempt or failed to submit required audits.

                      •    ONAP previously accepted tribe audit reports in lieu of required tribally
                           designated housing entity audit reports; however, the PTD system did not
                           identify such instances and, therefore, did not indicate the compliance
                           status of the associated entities.

                  To evaluate whether ONAP consistently monitored and enforced the grantee audit
                  submission requirements, we selected a nonstatistical sample 1 of 202 possible
                  required audits for review. In all 202 cases, ONAP’s PTD system did not have a
                  record to support the grantees’ compliance with the audit reporting requirements.
                  The 202 samples were associated with 90 grantees that received Indian Housing
                  Block Grants (IHBG), Indian Community Development Block Grants (ICDBG),
                  or both totaling approximately $84 million during fiscal years 2006 through 2010.
                  The sample was selected from a population of 2,038 possible required annual
                  audits associated with 509 individual grantees with grant amounts totaling
                  approximately $3.5 billion (all funded IHBG and ICDBG grants reported in
                  ONAPs PTD system). 2 Therefore, the sample included approximately 10 percent
                  of the possible required audits in the population and one or more audits for 18
                  percent of the population grantees.

                  ONAP’s PTD system did not include existing functionality to match grant records
                  to the audit reporting records in the database. The sample was selected based
                  upon our analysis of data extracted from the PTD system and included IHBG and
                  ICDBG program grants that did not have an associated audit record in ONAP’s
                  PTD system, for both the grantee and any associated tribally designated housing
                  entities.

                  Our review of documentation provided by ONAP related to the 202 samples
                  found the following:

                      •    21 audits were at least 90 days delinquent with no evidence indicating that
                           HUD took enforcement action before the start of our audit (see table 1,
                           appendix B). Fourteen of these audits were associated with grants from
                           fiscal year 2009 or earlier. Two of the audits were later submitted by the


1
  The sample selection process was not designed to identify all possible missing audit reports, and in some cases,
required reports may have been missing yet were not selected for the sample. The sample results demonstrate
examples of noncompliance that resulted from the control deficiencies identified in the audit finding yet cannot be
projected to estimate an error or compliance rate for the population of grants.
2
  The number of ONAP grantees referenced includes both tribes and their associated tribally designated housing
entities.


                                                          6
                  grantee; however, the remaining 19 audits with grant amounts totaling
                  approximately $6.2 million had not been received by ONAP.

              •   29 audits associated with grant amounts totaling approximately $19.8
                  million were submitted to the Federal Audit Clearinghouse, yet ONAP had
                  no record of the audit in its PTD system (see table 2, appendix B). In 19
                  of these cases, there was no evidence indicating that ONAP had reviewed
                  the audit. In 6 of these 19 cases, the audit reports included findings
                  associated with HUD programs. In 5 of the 29 cases, the audit reports
                  were delinquent, and ONAP did not pursue enforcement; however, the
                  reports were later submitted by the grantee.

              •   For 45 audits associated with grant amounts totaling approximately $22.6
                  million, ONAP accepted tribe audits in lieu of tribally designated housing
                  entity audits (see table 3, appendix B).

              •   For 93 audits with grant amounts totaling approximately $23.2 million, an
                  audit was not required because the grantee did not meet the OMB Circular
                  A-133 expenditure threshold (see table 4, appendix B). However, ONAP
                  had no record of the grantees’ audit reporting compliance in the PTD
                  system. In 37 of these cases, there was no evidence that ONAP verified
                  the grantees’ expenditure amounts and audit reporting compliance before
                  our audit.

              •   For 14 audits, timely enforcement was initiated, or an audit of the grantee
                  was not required due to circumstances such as a fiscal yearend date change
                  or a change in the tribally designated housing entity’s status as a separate
                  entity or tribal department. For these cases, the grantees’ audit reporting
                  compliance for the associated grants was not evident in the PTD system.

ONAP Did Not Always Obtain
Required Tribally Designated
Housing Entity Reports

           ONAP did not always obtain required audit reports from tribally designated
           housing entities, instead accepting the associated tribe’s audit submission.
           Section 405(a) of the Native American Housing and Self Determination Act
           (NAHASDA) defines tribally designated housing entities as “non-Federal
           entities” that must comply with the Single Audit Act. Consistent with this statute,
           HUD’s policy required that these entities submit required audit reports in
           accordance with OMB Circular A-133.

           ONAP did not consistently implement HUD’s policy regarding tribally designated
           housing entity audit reports, accepting tribe audits in lieu of these required audits.
           As noted above, our audit sample testing of 202 possible required audits for the



                                             7
                  period 2006 through 2010 found that ONAP accepted tribe audits in lieu of
                  tribally designated housing entity audits in 45 cases associated with grant amounts
                  totaling approximately $22.6 million3 (see table 3, appendix B). ONAP indicated
                  that for 10 of the 45 cases, it had determined that the entity ultimately did not
                  require an audit due to the $500,000 expenditure threshold.

                  Through a review of PTD system data and information provided by ONAP, we
                  identified nine additional tribe audits during this period that were accepted in lieu
                  of tribally designated housing entity audit reports (see table 5, appendix B).

    ONAP Did Not Consistently
    Enforce the Audit Submission
    Deadline

                  ONAP did not consistently enforce the required audit submission deadline. OMB
                  Circular A-133 and its authorizing statute at 31 U.S.C. 7502 require that audit
                  reports be submitted to the Federal Audit Clearinghouse within the earlier of 30
                  days after receipt of the auditor’s report(s) or 9 months after the end of the
                  grantee’s audit period. OMB Circular A-133 also requires ONAP to ensure that
                  grantee audits were received in a timely manner in accordance with the circular
                  requirements. Further, it requires that ONAP issue a management decision on
                  audit findings within 6 months after receipt of the audit report and ensure that the
                  grantee was taking appropriate and timely corrective action.

                  During the audit period from 2006 to 2010, three of the six ONAP field offices
                  chose not to enforce the statutory 9-month deadline. Instead, the ONAP offices
                  waited until at least 15 months after each grantee’s audit period (the due date for
                  grantee annual performance reports for the following grant year) to begin
                  enforcement action for delinquent audits. Because the offices waited until at least
                  6 months after the required due date and management decisions to resolve audit
                  findings were due within 6 months, ONAP would not have been able to fulfill its
                  responsibility to ensure timely corrective action in accordance with the
                  timeframes indicated by OMB Circular A-133. For example, it may have taken at
                  least 21 months after the audit period (and 33 months after the start of the audit
                  period when problems may have first occurred) before a corrective action plan
                  was approved by HUD. These delays would have been further extended for
                  audits that were not received by the annual performance report due date.




3
 The amounts noted include only funds awarded directly to the involved tribally designated housing entities.
Because these entities may have also administered additional grant funds awarded to their associated tribes, the
amount of HUD funds at risk may have been significantly more.


                                                          8
ONAP Lacked Adequate
Internal Controls

             The deficiencies identified occurred because ONAP lacked adequate policies and
             procedures, did not implement consistent controls over grantee audit reporting,
             and allowed varied procedures among the six ONAP field offices. Specifically,

                   •   ONAP did not have consistent procedures for entering expected audit
                       receipt dates and expenditure threshold determinations into its PTD
                       system.

                   •   ONAP did not ensure that requirements were known, as some field offices
                       were not aware of ONAP’s policy, which prohibited accepting tribe audits
                       in lieu of required tribally designated housing entity audits.

                   •   ONAP’s Grants Evaluation Guidebook is insufficient by not requiring
                       field offices to enforce the statutory and regulatory audit reporting
                       deadline (9 months after the grantee’s fiscal yearend). It states that the
                       offices “should” begin enforcement if the report is not submitted with the
                       annual performance report and “may” also begin enforcement when the
                       audit is late to the Federal Audit Clearinghouse. ONAP officials stated
                       that the field offices were given discretion to decide whether to enforce the
                       statutory deadline.

Conclusion

             ONAP did not provide adequate oversight and implement consistent procedures to
             monitor grantee compliance with the annual audit report submission requirements.
             As a result, it could not readily identify delinquent audit reports and did not have
             adequate assurance that its grant funds were used for eligible purposes and in
             compliance with program requirements. Additionally, tribally designated housing
             entity grantees did not always receive the extent of audit review required, and
             ONAP may have unnecessarily delayed required corrective actions for grantee
             audit report findings.

Recommendations

             We recommend that the Deputy Assistant Secretary, Office of Native American
             Programs:

             1A.       Initiate appropriate corrective or enforcement action authorized under 24
                       CFR (Code of Federal Regulations) 1000.530 for the 19 audit reports
                       identified during the audit that were at least 90 days delinquent with no




                                                 9
                           prior enforcement (see table 1, appendix B). 4 For those audits that remain
                           outstanding, HUD should initiate appropriate monetary enforcement
                           actions authorized under 24 CFR 1000.532, 24 CFR 1000.538, or 24 CFR
                           1003.703. 5

                  1B.      Update the PTD system to ensure that ONAP has a record of audit
                           reporting compliance for all grantees and pursue enforcement action for
                           any additional grantees found, based upon review of the updated records,
                           that did not submit required audit reports.

                  1C.      Obtain and review the 29 audit reports that were submitted to the Federal
                           Audit Clearinghouse yet not reported in ONAP’s PTD system (see table 2,
                           appendix B). ONAP should also pursue appropriate corrective actions for
                           audit findings within these reports.4

                  1D.      Implement controls necessary to consistently monitor grantee compliance
                           with the annual audit reporting requirements. These controls should
                           include procedures that will allow ONAP to document grantee audit
                           reporting compliance and readily identify missing or delinquent audit
                           reports. ONAP should consider updating its PTD system to automatically
                           generate a list of possible required audits to facilitate a complete
                           accounting of audit reporting compliance.

                  1E.      Discontinue the practice of accepting tribe audits in lieu of required
                           tribally designated housing entity audits and provide training or guidance
                           to field offices to ensure that ONAP’s policy regarding tribally designated
                           housing entity audits is consistently enforced. For grantees associated
                           with the 45 tribe audits identified during the audit that were accepted in
                           lieu of entity audits, ONAP should ensure that any further required audits
                           are submitted by the entities and reviewed by HUD to identify any
                           questioned costs.4 For those entities that do not submit a single audit,
                           HUD should pursue timely corrective or enforcement actions, including
                           possible reduction, termination, or limitation of grant amounts pursuant to
                           24 CFR 1000.532, 24 CFR 1000.538, or 24 CFR 1003.703.5

                  1F.      Implement policies and procedures to enforce the required audit
                           submission deadline specified in OMB Circular A-133 and 31 U.S.C.
                           7502, which is 9 months after each grantee’s fiscal yearend.




4
  Any monetary adjustments (including future grant reductions or terminations) or questioned costs identified as a
result of this recommendation should be reported during audit resolution.
5
  See appendix C.


                                                         10
                         SCOPE AND METHODOLOGY

Our review generally covered ONAP procedures that were in place during the period January
2010 through December 2011 to oversee audit reports due for fiscal years 2006 through 2010. In
some cases, we reviewed documents related to periods outside these dates. We performed our
audit from January to July 2012 at our office in Phoenix, AZ, based on records and information
obtained from the ONAP offices and personnel.

To accomplish our objective, we:

   •   Reviewed requirements that govern ONAP programs, including statutes, HUD
       guidebooks, the Code of Federal Regulations, and OMB circulars;

   •   Reviewed written policies and procedures specific to ONAP field offices;

   •   Reviewed records maintained by ONAP, including enforcement documentation available
       on ONAP’s SharePoint server;

   •   Interviewed ONAP management and staff at HUD headquarters and each of the six
       ONAP field offices;

   •   Obtained a copy of ONAP’s PTD and analyzed the data to identify potentially missing
       audit reports, and

   •   Reviewed a nonstatistical sample of grants to evaluate ONAP’s controls over grantee
       audit reporting (see page 6 of the report for a detailed discussion of the sample selection).

We assessed the reliability of ONAP’s PTD data by (1) performing limited testing to determine
whether reported audits were submitted, (2) reviewing information about the data and the system
that produced the data, and (3) interviewing agency officials knowledgeable about the data. We
determined that the data were sufficiently reliable for the purposes of this audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Policies and procedures that were implemented to ensure that program activities
                   complied with applicable laws and regulations.

               •   Policies and procedures to provide reasonable assurance that funds were used
                   only for authorized purposes.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               •   ONAP did not implement adequate procedures to monitor grantees’ compliance
                   with annual audit report submission requirements (finding).




                                                 12
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation      Auditee Comments




Comment 1




Comment 2




                            13
Comment 3



Comment 4




            14
Comment 5




Comment 6




            15
Comment 7



Comment 8




            16
Comment 9




Comment 10




             17
Comment 11




Comment 12


Comment 13




             18
Comment 14




Comment 15



Comment 16




Comment 17




             19
20
Comment 18

Comment 19

Comment 20

Comment 21




Comment 22

Comment 23




             21
Comment 24

Comment 25


Comment 26

Comment 27

Comment 28


Comment 29




Comment 30




             22
Comment 31

Comment 32


Comment 33




Comment 34


Comment 35

Comment 36




             23
Comment 37

Comment 38


Comment 27

Comment 28

Comment 39


Comment 40

Comment 41

Comment 42




             24
Comment 43




             25
Comment 43




Comment 44


Comment 45




             26
                         OIG Evaluation of Auditee Comments

Comment 1   We disagree with ONAP’s assertion that the audit report did not present sufficient
            support for a finding. As stated in the audit report and supported by the facts
            presented, ONAP failed to consistently monitor grantees’ audit reporting
            compliance, failed to obtain required audit reports in some cases, and did not
            consistently enforce the audit submission deadline (see finding). In our opinion,
            the corrective actions (recommendations) identified in the audit report are
            necessary to address ONAP’s control weaknesses and to prevent possible
            systemic fraud, waste, and abuse from developing. We note that the risk
            associated with these deficiencies will likely increase as grantees observe that
            ONAP did not always follow up to determine which audits were required or
            submitted. Therefore, the report remains unchanged.

Comment 2   We disagree with ONAP’s statement that the finding was not a “significant
            deficiency.” The elements in the finding represent a significant deficiency
            because, without basic controls to consistently monitor grantee audit submissions,
            such as maintaining a list of grantees that were required to submit audit reports,
            HUD did not have adequate assurance that its funds were audited as required,
            thereby increasing the risk for losses associated with fraud, waste, and abuse. In
            our opinion, ONAP’s failure to maintain an accurate accounting of grantee audit
            reporting compliance and failure to consistently enforce the statutory deadline for
            audit submissions to the Federal Audit Clearinghouse represents noncompliance
            with the fundamental requirements for government agencies to implement
            sufficient internal controls and to ensure accountability.

            ONAP also stated that the examples of noncompliance identified by the OIG audit
            sample testing were minimal when considering the total number of ONAP grants
            and should have been based on the entire population of ONAP grants. We
            disagree with ONAP’s statements questioning the significance of the OIG
            findings. An acceptable nonstatistcal sample was utilized as a means of audit
            testing to identify weaknesses and deficiencies. The percentages presented by
            ONAP are irrelevant as the audit sample was not meant to be absolute or used as a
            means of projection. However, we agree that a complete review of grantee
            compliance for all ONAP grants is needed and note that the total number of
            grantee audit reporting deficiencies could not be determined during our audit
            because ONAP did not have an accurate accounting of grantee audit reporting
            compliance. Our audit sample testing procedures were consistent with the audit
            objective and were not intended as substitutive procedures for ONAP’s required
            monitoring responsibilities (for example, reviewing all grants to determine
            grantee compliance). As stated in the audit report, we recommend that ONAP
            update its PTD system to ensure that it has a record of audit reporting compliance
            for all grantees. We further recommend that ONAP pursue enforcement action
            for any additional grantees found, based upon review of the updated records, that
            did not submit required audit reports (see recommendation 1B). The results of
            our audit sample testing confirmed that ONAP’s internal controls were not always



                                            27
            effective in ensuring grantee audit reporting compliance and further demonstrated
            the need for corrective measures.

Comment 3   ONAP indicated it could not find a statement from its Grant’s evaluation
            guidebook that was referred to in the OIG audit report. Section 3.2.2 of the
            ONAP Grants Evaluation Guidebook in effect during our audit period stated,
            “Late submissions of audit reports may be a warning sign of waste, fraud, or
            abuse. Recipients may have failed to contract for an audit, may wish to avoid
            detection of serious irregularities or noncompliance with regulations, or to avoid
            monitoring or sanctions by HUD.”

Comment 4   We disagree with ONAP’s claim that contacting grantees to determine whether an
            audit was required represents an unwarranted burden. This role and specific
            function is an ordinary task necessary for HUD to comply with its oversight
            responsibilities under OMB Circulars A-123 and A-133. Because HUD, as a
            Federal agency, is required to review annual audit reports from its grantees, it
            must create and maintain procedures to determine which grantees were required
            to submit audits and have appropriate controls in place to ensure that required
            reports were received and reviewed. Additionally, ONAP’s review of grantee
            audit reports is an important part of HUD’s risk assessment and monitoring
            process. In our opinion, if grantees are unwilling or unable to readily indicate
            their audit reporting compliance, this is a significant risk indicator, even for
            smaller grantees, that should not be intentionally avoided or ignored.

Comment 5   We agree that the audit sample design included a nonstatistical methodology and,
            as stated in the audit report, could not be used to project an error or compliance
            rate for the entire population of grants. The actual rate of grantee noncompliance
            was not determined during the audit because ONAP did not have an accurate
            accounting of audit reporting compliance for its grantees. To address this
            deficiency, the audit report recommends that ONAP update the PTD system to
            ensure that ONAP has a record of audit reporting compliance for all grantees and
            pursue enforcement action for any additional grantees found, based upon review
            of the updated records, that did not submit required audit reports (see
            recommendation 1B).

            As part of the audit, we reviewed ONAP’s procedures for tracking grantee audit
            reporting compliance, including procedures for data entry into its PTD system.
            As discussed in the audit report, we also reviewed a nonstatistical sample of 202
            possible required audits including associated hardcopy documentation, as
            necessary, such as audit reports, Federal Audit Clearinghouse summary
            documents, annual performance report documents, etc. The audit report
            conclusions are based upon our observation that ONAP lacked adequate internal
            controls. The sample results serve as examples to demonstrate the effect of these
            control weaknesses and the need for corrective action to prevent further
            noncompliance and minimize the risk of fraud, waste, and abuse.




                                             28
Comment 6   We agree that the PTD data used were provided by ONAP in January 2012 and
            find that this does not conflict with any statements or conclusions in the audit
            report and is consistent with the audit objective. The PTD data used were related
            to grants awarded during fiscal years 2006 through 2010. Accordingly, audit
            reports for these grants were due, at the latest, by September 30, 2010, more than
            3 months before the date ONAP provided PTD records to OIG. We recognize
            that ONAP enters data into the PTD system regularly; however, as noted in the
            audit report, three of the six ONAP field offices created a record in the PTD
            system only for audit reports that had been received. Also, three of the six ONAP
            field offices did not update the PTD system to indicate which grantees were
            exempt from the audit requirements due to the $500,000 expenditure threshold.
            Because ONAP did not update this key information, it did not have a reliable
            accounting of audit reporting compliance for its grantees and did not have a
            complete record of missing or delinquent audit reports.

Comment 7   ONAP stated that the Native American Housing Assistance and Self
            Determination Act (NAHASDA) and its implementing regulations do not specify
            a timeline for when enforcement action is to be taken and concluded that the 21
            delinquent audits identified by OIG should not be considered a finding. OMB
            Circular A-133 requires HUD to ensure that grantee audit reports are received in a
            timely manner, and OMB Circular A-123 requires ONAP to develop and maintain
            internal control to achieve the objectives of effective and efficient operations and
            compliance with applicable laws and regulations. To evaluate whether follow-up
            action for delinquent audits was timely, we conducted interviews with ONAP
            field offices about their policies and procedures for issuing letters of warning.
            The ONAP field offices interviewed indicated that their policy was to send letters
            of warning for delinquent audits between 1 and 30 days after the due date, which
            in our opinion, appears to be a reasonable timeframe. However, all 21 of the
            missing audits identified in our audit report were at least 90 days delinquent.
            Fourteen of the audits were between 1 and 4 years overdue. Procedures that result
            in such protracted delays without responsive action by HUD are not consistent
            with the agency’s responsibility to ensure that audits are received in a timely
            manner and maintain proper accountability. Therefore, the report remains
            unchanged

Comment 8   ONAP concedes that that it has had “conflicting views” in the past regarding
            whether certain tribally designated housing entities were required to submit their
            own financial audits. However, ONAP has concluded, in agreement with our
            determination, that tribally designated housing entities should be required going
            forward to have their own audits conducted if the appropriate threshold is met.
            This is consistent with the already established statute and HUD regulations.
            ONAP also noted that many small entities would rather not incur the cost of
            procuring an audit if their tribe was willing to include the IHBG funds under the
            tribal audit. Section 405(a) of NAHASDA defines tribally designated housing
            entities as “non-Federal entities” that must comply with the Single Audit Act. We
            find ONAP’s statement that the entities’ desire to spend money on other activities,



                                             29
              rather than on required audits, is not a valid justification for noncompliance with
              the Federal audit reporting requirements.

Comment 9     For clarification, the table titled “Total direct funding to TDHEs” was removed
              from the audit report, and the associated table 5 in appendix B was revised
              accordingly (see also comments 44 and 45). Footnote 3 describes how funding
              received by tribally designated housing entities may be higher than the amount we
              reviewed. The entities that did not submit required audits may have administered
              both the direct grants they received from HUD and a portion of an associated
              tribe’s HUD funding, as a subrecipient for example. All ONAP funds
              administered by the tribally designated housing entity, whether received directly
              from ONAP or through a tribe, were at risk when ONAP did not obtain the
              required audit reports.

Comment 10 We agree with ONAP in its assessment that the decision to pursue enforcement
           action is complex and requires consideration. In that regard, it is important to
           maintain consistent national policies and procedures that follow Federal
           requirements (see revised recommendation 1F). As stated in our audit report,
           three of the six ONAP offices did not consistently enforce the 9-month audit
           submission deadline required under OMB Circular A-133 and its authorizing
           statute at 31 U.S.C. 7502. We determined that ONAP area offices did not begin
           to consider grantees for possible enforcement action until at least 6 months after
           the reporting deadline was missed. ONAP’s Grants Evaluation Guidebook
           includes specific procedures that must be followed to obtain an extension to the
           audit submission deadline. Because the offices did not enforce the 9-month
           deadline until at least 15 months had elapsed, ONAP effectively granted an
           extension to the statutory deadline without following the required procedures.
           Again we note that, as grantees become aware that HUD is not enforcing the audit
           submission requirements, this may result in an increased rate of noncompliance.

Comment 11 ONAP requested that OIG clarify the due dates referenced in the audit report
           related to audit submissions and audit finding corrective actions. For
           clarification, the due dates for audit report submissions and management
           decisions are both specified in OMB Circular A-133. Audit reports are due 9
           months after the end of the audit period, and management decisions for audit
           findings are due within 6 months after the audit report is received. Accordingly,
           if audits are received in a timely manner (within 9 months), management
           decisions should be completed within 15 months.

              We disagree with ONAP’s indication that by delaying its own receipt of required
              audit reports (although the reports may have already been received by the Federal
              Audit Clearinghouse), ONAP effectively extended the due date for management
              decisions beyond the 15-month period contemplated by OMB Circular A-133.
              We determined that ONAP waited, in some cases, at least 15 months to obtain
              grantee audit reports and did not pursue enforcement action for delinquent audit
              reports until this time. The delay in obtaining reports and enforcement action



                                               30
              would then delay a management decision beyond the 6-month timeframe
              contemplated by OMB Circular A-133. In other words, ONAP could not issue a
              management decision within 15 months because it did not obtain the required
              audit reports within this timeframe.

Comment 12 We agree that ONAP’s written policies required staff to enter expected audit
           receipt dates. However, we determined that ONAP did not consistently
           implement this guidebook requirement. As stated on page 5 of the audit, three of
           the six ONAP field offices created a record in the PTD system only for audit
           reports that had been received. Therefore, the system did not have a complete
           record of missing or delinquent audit reports.

              ONAP’s policies and procedures were insufficient with regard to enforcement of
              the audit submission deadline (see revised recommendation 1F). As stated in the
              audit report, the Grants Evaluation Guidebook did not properly require field
              offices to enforce the statutory audit reporting deadline (9 months after the
              grantees’ fiscal yearend).

Comment 13 We disagree with ONAP’s assertion that the Grants Evaluation Guidebook was
           sufficient with regard to enforcement. During the review, ONAP officials stated
           that ONAP’s policy was to allow each area ONAP office discretion to wait until
           the annual performance report due date (6 months after the statutory audit due
           date) to initiate enforcement action for delinquent audits. ONAP’s Grants
           Evaluation Guidebook confirms that this was the policy, as it states that the area
           ONAP offices “may” begin enforcement when the audit is late to the Federal
           Audit Clearinghouse and “should” begin enforcement when audits are not
           submitted with the grantees annual performance report. Because the report is not
           due until due 6 months after the statutory audit submission deadline, we believe
           the guidebook should be revised accordingly and state that enforcement should
           begin based upon the statutory due date (see revised recommendation 1F). We
           agree that enforcement should be considered on a case-by-case basis and find that
           this should not prevent HUD from enforcing the statutory audit submission
           deadline on a timely basis or developing related procedures applied consistently
           across ONAP offices.

Comment 14 ONAP noted that, in some cases, grantee audits do not provide significant
           assurance that funds were used for eligible purposes and therefore, any failure by
           ONAP to provide adequate oversight of grantee audits did not result in a lack
           adequate assurance that ONAP funds were used for eligible purposes. We agree
           that the level of audit review and associated assurance that each audit provides
           can vary based upon the amount of the program funds awarded to each grantee
           and other factors. However, this does not conflict with the audit report
           conclusions. Because ONAP did not have a complete and accurate accounting of
           grantee audit reporting compliance, ONAP could not identify all missing or
           delinquent audit reports and, therefore, did not have assurance that all required
           audits were performed. We note that ONAP’s Grants Evaluation Guidebook



                                             31
              stresses the importance of grantee audit reports, stating that the reports are
              ONAP’s primary source of information regarding grantees’ financial position and
              internal controls. By failing to provide adequate oversight and implement
              consistent procedures to monitor grantee compliance with the audit submission
              requirements, ONAP did not have the required level of assurance prescribed
              under the audit requirements of OMB Circular A-133 for grantee expenditures.

              Additionally, the level of audit review and specific audit procedures may vary if
              the tribally designated housing entity was audited separately instead of being
              included as a component unit of a tribe. For example, the financial statements of
              the entity would be separately presented and audited, the auditors’ evaluation of
              relative program risk and associated levels of audit testing could vary, and the
              auditors would be required to perform a separate evaluation of the entity’s internal
              controls regardless of its funding amounts relative to the tribe.

Comment 15 ONAP requested that OIG specify the grant type for each of the audit reports
           identified in the OIG audit report and stated this information will be necessary
           when preparing its management decision for the OIG audit. We will provide the
           requested information to ONAP officials if needed for preparation of the
           management decision during resolution. However, this information should
           already be available to ONAP because the funding amounts from our audit report
           were obtained from the PTD system data provided by ONAP.

Comment 16 All data reported in our report tables, including the listed grantee identification
           numbers, were obtained from ONAP’s PTD system. In response to ONAPs
           assertion that there were 25 instances of incorrect data, we reviewed the data
           again and found that the report tables correctly reported the grant recipient
           identification numbers and grant amounts from ONAP’s PTD system. Because
           ONAP’s response indicates that its PTD system may have erroneously reported
           the identities of its grantees, we reiterate the need for the corrective actions
           identified in our audit report recommendation1B, which states that ONAP should
           update its PTD system to ensure that it has a record of audit reporting compliance
           for all grantees. If ONAP’s PTD system did not correctly report which entity was
           funded, ONAP should update the data to reflect the correct grantee and ensure
           that it has a record of audit compliance for the correct entity. To clarify, we note
           that all 202 of the sample grants we reviewed did not have a record of audit
           reporting compliance reported in the PTD system for both the grantee on record
           and any associated tribally designated housing entity. If ONAP determines that
           corrective action is not required in accordance with the report recommendations
           for any of the grants identified in the audit report, it should provide
           documentation to support this conclusion as part of the audit resolution. Our
           response for each case referred to in ONAP’s response is stated below (see
           response comments 18 through 42). Our analysis is based on data available to us,
           including data from ONAP’s own PTD system. ONAP should provide supporting
           documentation during audit resolution if it determines a different grant recipient.




                                               32
Comment 17 ONAP stated that for 13 instances identified in the audit report for which ONAP
           accepted a Tribe audit in lieu of a TDHE audit, the TDHE did not require an audit
           because the audit threshold was not met. We revised the audit report to note
           ONAP’s determination regarding the audit expenditure threshold for the 10 cases
           noted from table 3 (see comments 44 and 45). A footnote was also added to table
           3, appendix B, for clarification. However, because information provided by
           ONAP during the audit for these cases indicated that ONAP accepted the tribe
           audits without determining the audit compliance status of the tribally designated
           housing entity, we did not make an adjustment for these cases to the total number
           of reported instances of tribe audits that were accepted in lieu of entity audits.
           Although ONAP’s response states that it has now determined that the threshold
           was not met, we note that the PTD system was not updated for these cases, and
           the grantees’ audit reporting compliance was not evident for the associated grants.
           ONAP’s failure to record the grantees’ audit reporting compliance for these cases
           supports our audit report conclusion that ONAP did not have consistent controls
           to monitor grantee compliance with the audit reporting requirements. As noted in
           the audit report, three of the six ONAP field offices did not update the PTD
           system to indicate which grantees were exempt from the audit requirements due to
           the $500,000 expenditure threshold. The three cases, reported in table 5,
           appendix B, of the report, referenced by ONAP in attachment 2 of its response,
           were removed from the report (see comment 43).

Comment 18 Our audit report data were correct. For grantee number 15, in Region 5
           (Southern Plains), for fiscal year 2006, ONAP’s PTD system reported an IHGB
           grant totaling $296,726 with an associated grant number of 06-IH-22-18100.
           During our review, in response to our request for documentation regarding the
           grantee’s audit reporting compliance, ONAP’s response for this item stated,
           “Grant closed do not have 06 Grantee Files.”

Comment 19 Our audit report data were correct. For grantee number 15, in Region 5
           (Southern Plains), for fiscal year 2007, ONAP’s PTD system reported an IHGB
           grant totaling $288,010 with an associated grant number of 07-IH-22-18100.
           During our review, ONAP’s response for this item stated, “Grant closed do not
           have 07 Grantee Files.”

Comment 20 Our audit report data were correct. For grantee number 39, in Region 5 (Southern
           Plains), for fiscal year 2009, ONAP’s PTD system reported an ICDBG grant
           totaling $800,000 with an associated grant number of B09SR400796. During our
           review, ONAP’s response explaining why no audit was reported for this grant
           stated, “Oversite / ICDBG Grantee, Audit not submitted to FAC [Federal Audit
           Clearinghouse].”

Comment 21 Our audit report data were correct. For grantee number 39, in Region 5 (Southern
           Plains), for fiscal year 2010, ONAP’s PTD system reported an ICDBG grant
           totaling $800,000 with an associated grant number of B10SR400796. During our




                                             33
              review, ONAP’s response explaining why no audit was reported for this grant
              stated, “Oversite / ICDBG Grantee, Audit not submitted to FAC.”

Comment 22 Our audit report data were correct. For grantee number 76, in Region 2
           (Northwest), for fiscal year 2006, ONAP’s PTD system reported an IHBG grant
           totaling $2,904,854 with an associated grant number of 06IT5308420. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Lummi Housing Authority.”

Comment 23 Our audit report data were correct. For grantee number 693, in Region 4
           (Southwest), for fiscal year 2007, ONAP’s PTD system reported an IHBG grant
           totaling $424,231 with an associated grant number of 07IH0637940. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Tuolumne Me-Wuk Housing Authority.”

Comment 24 Our audit report data were correct. For grantee number 693, in Region 4
           (Southwest), for fiscal year 2008, ONAP’s PTD system reported an IHBG grant
           totaling $558,207 with an associated grant number of 08IH0637940. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Tuolumne Me-Wuk Housing Authority.”

Comment 25 Our audit report data were correct. For grantee number 693, in Region 4
           (Southwest), for fiscal year 2009, ONAP’s PTD system reported an IHBG grant
           totaling $409,192 with an associated grant number of 09IH0637940. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Tuolumne Me-Wuk Housing Authority.”

Comment 26 Our audit report data were correct. For grantee number 888, in Region 4
           (Southwest), for fiscal year 2006, ONAP’s PTD system reported an IHBG grant
           totaling $1,010,942 with an associated grant number of 06IH0624740. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “North Fork Rancheria Indian Housing Authority.”

Comment 27 Our audit report data were correct. For grantee number 888, in Region 4
           (Southwest), for fiscal year 2007, ONAP’s PTD system reported $1,083,291 in
           direct grants awarded (as illustrated in the audit report, table 3, appendix B). The
           associated grant number was 07IH0624740. The PTD system reported that this
           grantee was a tribally designated housing entity named “North Fork Rancheria
           Indian Housing Authority.” This entity was listed in the PTD system as the
           tribally designated housing entity for a tribe named “North Fork Rancheria of
           Mono Indians,” indicating that a portion of the funding awarded to the tribe may
           have been administered by this entity. During our review, ONAP confirmed that
           it accepted a tribe audit in lieu of an entity audit.

Comment 28 Our audit report data were correct. For grantee number 888, in Region 4
           (Southwest), for fiscal year 2008, ONAP’s PTD system reported $1,093,438 in



                                              34
              direct grants awarded (as illustrated in the audit report, table 3, appendix B). The
              associated grant number was 08IH0624740. The PTD system reported that this
              grantee was a tribally designated housing entity named “North Fork Rancheria
              Indian Housing Authority.” This entity was listed in the PTD system as the
              tribally designated housing entity for a tribe named “North Fork Rancheria of
              Mono Indians,” indicating that a portion of the funding awarded to the tribe may
              have been administered by this entity. During our review, ONAP confirmed that
              it accepted a tribe audit in lieu of an entity audit.

Comment 29 Our audit report data were correct. For grantee number 1174, in Region 4
           (Southwest), for fiscal year 2009, ONAP’s PTD system reported an IHBG grant
           totaling $254,613 with an associated grant number of 09IH0637460. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Torres-Martinez Tribal Housing Authority.”

Comment 30 Our audit report data were correct. For grantee number 1174, in Region 4
           (Southwest), for fiscal year 2010, ONAP’s PTD system reported an IHBG grant
           totaling $276,297 with an associated grant number of 10IH0637460. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Torres-Martinez Tribal Housing Authority.”

Comment 31 Our audit report data were correct. For grantee number 128, in Region 6 (Eastern
           Woodlands), for fiscal year 2010, ONAP’s PTD system reported an ICDBG grant
           totaling $598,500 with an associated grant number of B10SR263078. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Nottawaseppi Huron Band of Potawatomi Indians HA.”

Comment 32 Our audit report data were correct. For grantee number 167, in Region 6 (Eastern
           Woodlands), for fiscal year 2006, ONAP’s PTD system reported an IHBG grant
           totaling $196,640 with an associated grant number of 06IH2728120. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Lower Sioux Indian Housing Authority.”

Comment 33 Our audit report data were correct. For grantee number 167, in Region 6 (Eastern
           Woodlands), for fiscal year 2007, ONAP’s PTD system reported an IHBG grant
           totaling $203,831 with an associated grant number of 07IH2728120. The PTD
           system reported that this grantee was a tribally designated housing entity named
           “Lower Sioux Indian Housing Authority.”

Comment 34 Our audit report data were correct. For grantee number 15, in Region 5 (Southern
           Plains), for fiscal year 2009, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a tribally designated housing entity named “Tunica-
           Biloxi Housing Authority.” This entity was listed in the PTD system as the entity
           for a tribe named “Tunica-Biloxi Indian Tribe of Louisiana,” indicating that a




                                               35
              portion of the funding awarded to the tribe may have been administered by this
              entity.

Comment 35 Our audit report data were correct. For grantee number 41, in Region 5 (Southern
           Plains), for fiscal year 2008, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a tribally designated housing entity named
           “Delaware Nation Housing Authority.” This entity was listed in the PTD system
           as the entity for a tribe named “Delaware Nation,” indicating that a portion of the
           funding awarded to the tribe may have been administered by this entity. Data
           from the Federal Audit Clearinghouse indicate that no HUD funding was
           reviewed as part of the tribe’s audit.

Comment 36 Our audit report data were correct. For grantee number 873, in Region 4
           (Southwest), for fiscal year 2008, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a “housing department” named “Pascua Yaqui
           Housing Department.” This entity was listed in the PTD system as the tribally
           designated housing entity for a tribe named “Pascua Yaqui Tribe,” indicating that
           a portion of the funding awarded to the tribe may have been administered by this
           entity. During our review, ONAP confirmed that an audit was required for this
           entity and, further, that ONAP accepted a tribe audit in lieu of the entity audit.

Comment 37 Our audit report data were correct. For grantee number 873, in Region 4
           (Southwest), for fiscal year 2009, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a “housing department” named “Pascua Yaqui
           Housing Department.” This entity was listed in the PTD system as the tribally
           designated housing entity for a tribe named “Pascua Yaqui Tribe,” indicating that
           a portion of the funding awarded to the tribe may have been administered by this
           entity. During our review, ONAP confirmed that an audit was required for this
           entity and, further, that ONAP accepted a tribe audit in lieu of the entity audit.

Comment 38 Our audit report data were correct. For grantee number 873, in Region 4
           (Southwest), for fiscal year 2010, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a “housing department” named “Pascua Yaqui
           Housing Department.” This entity was listed in the PTD system as the tribally
           designated housing entity for a tribe named “Pascua Yaqui Tribe,” indicating that
           a portion of the funding awarded to the tribe may have been administered by this
           entity. During our review, ONAP confirmed that an audit was required for this
           entity and, further, that ONAP accepted a tribe audit in lieu of the entity audit.

Comment 39 Our audit report data were correct. For grantee number 902, in Region 4
           (Southwest), for fiscal year 2007, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system



                                              36
              reported that this grantee was a “housing department” named “Pueblo of Jemez
              Housing Department.” This entity was listed in the PTD system as the tribally
              designated housing entity for a tribe named “Pueblo of Jemez,” indicating that a
              portion of the funding awarded to the tribe may have been administered by this
              entity. During our review, ONAP confirmed that an audit was required for this
              entity and, further, that ONAP accepted a tribe audit in lieu of the entity audit.

Comment 40 Our audit report data were correct. For grantee number 917, in Region 4
           (Southwest), for fiscal year 2007, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a “housing department” named “Reno-Sparks
           Housing Department.” This entity was listed in the PTD system as the tribally
           designated housing entity for a tribe named “Reno-Sparks Indian Colony,”
           indicating that a portion of the funding awarded to the tribe may have been
           administered by this entity. During our review, ONAP stated that an audit was
           required for this entity, and we confirmed that no audit was submitted to the
           Federal Audit Clearinghouse.

Comment 41 Our audit report data were correct. For grantee number 917, in Region 4
           (Southwest), for fiscal year 2010, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a “housing department” named “Reno-Sparks
           Housing Department.” This entity was listed in the PTD system as the tribally
           designated housing entity for a tribe named “Reno-Sparks Indian Colony,”
           indicating that a portion of the funding awarded to the tribe may have been
           administered by this entity. During our review, ONAP stated that an audit was
           required for this entity, and we confirmed that no audit was submitted to the
           Federal Audit Clearinghouse.

Comment 42 Our audit report data were correct. For grantee number 921, in Region 4
           (Southwest), for fiscal year 2009, ONAP’s PTD system reported no direct grants
           awarded (as illustrated in the audit report, table 5, appendix B). The PTD system
           reported that this grantee was a “housing department” named “Ysleta Del Sur
           Housing.” This entity was listed in the PTD system as the tribally designated
           housing entity for a tribe named “Ysleta Del Sur,” indicating that a portion of the
           funding awarded to the tribe may have been administered by this entity. During
           our review, ONAP confirmed that an audit was required for this entity and that
           ONAP accepted a tribe audit in lieu of the entity audit.

Comment 43 For the 10 cases referenced in ONAP’s response, we requested from ONAP
           during our review a statement indicating the reason an audit was not reported in
           the PTD system, a copy of the grantee certification regarding the OMB Circular
           A-133 expenditure threshold, and a copy of the annual performance report pages
           demonstrating Federal expenditure amounts. ONAP did not provide any such
           documentation evidencing the grantees’ expenditures for these cases and did not
           state the expenditure threshold as an explanation for why the audit was not



                                               37
              received or reported in ONAP’s PTD system. As noted in comment 17, because
              information provided by ONAP during the audit for these 10 cases indicated that
              ONAP accepted the tribe audits without determining the audit compliance status
              of the tribally designated housing entity, we did not make an adjustment for these
              cases to the total number of reported instances of tribe audits that were accepted
              in lieu of entity audits. However, a footnote was added to table 3 in appendix B
              for clarification.

Comment 44 We removed the noted exception from our report for this case because we
           determined that ONAP had verified the referenced tribally designated housing
           entity’s audit reporting compliance.

Comment 45 Table 5, appendix B, was amended to avoid duplication. Specifically, we
           removed seven relevant reports identified in table 5 that were also identified in
           table 3, appendix B. Associated values in the report were adjusted accordingly.




                                              38
Appendix B

       DETAILED RESULTS OF OIG’S REVIEW SAMPLE

                Table 1: Delinquent audits without timely enforcement (90 days)
                                                                            Late with no
                                                        Total IHBG-ICDBG
       Region             Grantee ID     Fiscal year                        enforcement
                                                               funds
                                                                              received
   Northern Plains
                             91              10        $          476,367
       ONAP
                             665             10                   668,255
                             688             09                    99,619
                             713             09                   227,367
                             713             10                   241,005
                             787             06                   173,721
                             787             07                   170,642
  Southwest ONAP             787             08                   144,071
                             789             09                    49,715
                             793             08                    98,624
                             906             10                   886,868
                             918             06                   323,739
                             918             07                   340,909
                            1143             10                                   X
                              15             06                   296,276
                              15             07                   288,010
                              39             09                   800,000
   Southern Plains
                              39             10                   800,000
       ONAP
                              40             10                                   X
                              82             06                   109,024
                              86             07                    25,000
                                                                      $           2
                         Totals
                                                              6,219,212




                                              39
 Table 2: Audits submitted to the Federal Audit Clearinghouse and not in ONAP’s PTD system
                                                                         No
                                                                                                Received late
                                                      Total IHBG-    evidence of   Finding in
     Region           Grantee ID   Fiscal year                                                    with no
                                                     ICDBG funds        audit        audit
                                                                                                enforcement
                                                                       review
  Alaska ONAP            305           09        $          90,000        X
 Northern Plains
                         177           06                   900,00       X
     ONAP
                         657           07                   35,463
                         666           10                   54,019
                         699           10                  200,215
                         711           10                   54,019
                         777           10                   54,019       X
                         778           09                2,750,000       X                           X
                         789           10                   54,019       X
 Southwest ONAP          892           07                  662,821       X             X             X
                         916           08                  978,047
                        1070           06                  791,195
                        1130           06                  346,806       X                           X
                        1180           06                1,403,490
                        1180           07                1,448,425
                        1180           10                1,346,145
                        1197           10                  438,600       X
                           4           08                  849,337       X             X             X
                           5           10                  249,430       X             X
                          17           10                  800,000       X             X
                          21           09                  903,959       X                           X
 Southern Plains
                          24           08                  438,842       X             X
     ONAP
                          53           09                  779,700       X
                          53           10                  799,780       X
                          68           07                  561,151       X             X
                          85           06                  800,000       X
                          16           10                  471,285       X
Eastern Woodlands
                         111           06                  632,375
      ONAP
                         112           06                  885,870       X
                                                               $
                    Totals                                               19            6             5
                                                      19,779,012




                                                       40
            Table 3: Tribe audits accepted in lieu of tribally designated housing entity
                                              audits 6
                  Region              Grantee ID            Fiscal year       Total IHBG-ICDBG funds
               Alaska ONAP               288                    06            $                 783,422
              Northwest ONAP             76                     06                             2904854
                                         693                    07                              424,231
                                         693                    08                              558,207
                                         693                    09                              409,192
                                         885                    06                            2,487,504
                                         887                    06                              296,293
                                         888                    06                            1,010,942
                                         888                    07                            1,083,291
                                         888                    08                            1,093,438
                                         889                    06                              274,265
                                         889                    07                              280,473
                                         889                    09                              307,763
                                         889                    10                              355,760
                                         891                    06                               96,749
                                         891                    07                              119,727
                                         891                    08                              126,398
                                         891                    09                              140,275
                                         891                    10                              151,305
                                         892                    06                              585571
              Southwest ONAP
                                         898                    07                              213,970
                                         898                    08                              203,596
                                         898                    09                              213,338
                                         898                    10                              232,447
                                         901                    06                            1,069,440
                                         901                    07                            1,035,046
                                         906                    06                              295,739
                                         906                    07                              245,254
                                         906                    08                              231,150
                                         906                    09                              864,501
                                         918                    09                              365,734
                                        1174                    09                              254,613
                                        1174                    10                              276,297
                                        1189                    06                              117,091
                                        1189                    07                              123,465
                                        1189                    08                              188,670
                                        1189                    09                              195,775
                                        1189                    10                              882,314
                                         20                     07                              457,290
                                         31                     06                              181,694
                                         31                     07                              191,646
             Eastern Woodlands
                                         31                     08                              317,094
                   ONAP
                                         128                    10                              598,500
                                         167                    06                              196,640
                                         167                    07                              203,831
                                       Total                                                      $
                                                                                         22,644,795

6
 Grants highlighted in blue were determined by HUD, during audit reporting, to have not me the audit threshold.
However, in these cases, we determined that ONAP accepted a tribe audit without previously verifying whether a
separate entity audit was required (see comments 17 and 45 in appendix A).


                                                       41
                                         Table 4: Threshold not met 7
                                                                                       Threshold not
                                          Grantee       Fiscal       Total IHBG-
                     Region                                                             met and not
                                             ID         year        ICDBG funds
                                                                                          verified
                                            107          06                346,126            X
                                            107          08                370,549            X
                                            107          09                328,095            X
                                            107          10                347,475            X
                 Northern Plains            119          06                122,105            X
                     ONAP                   119          07                198,965            X
                                            119          08                364,329            X
                                            119          09                433,934            X
                                            119          10                434,880            X
                                            124          10                 54,019            X
                                            656          09                 49,715            X
                                            656          10                 54,019            X
                                            663          06                 25,000            X
                                            663          08                 48,660            X
                                            663          09                 49,715            X
                                            663          10                 54,019            X
                                            666          06                 25,000
                                            666          09                 49,715            X
                                            682          09                 80,362
                                            683          10                 54,019
                                            698          06                 25,000            X
                                            698          07                 25,000            X
                                            698          08                 48,660            X
                                            698          09                 49,715            X
                                            698          10                 54,019            X
                   Southwest                709          10                178,627            X
                     ONAP                   711          06                 25,000            X
                                            744          09                 49,715            X
                                            744          10                 54,019            X
                                            787          09                158,261            X
                                            879          06                306,225            X
                                            887          08                421,164
                                            889          08                268,117
                                            908          07                679,731
                                            918          08                353,526            X
                                           1101          06                 78,249
                                           1101          07                 75,848
                                           1101          08                107,816
                                           1132          06                 75,877
                                           1132          07                 60,702
                                           1132          08                 75,877
                                           1132          09                108,937

7
 Table 4 illustrates 93 instances in which the grantee did not meet the $500,000 audit threshold specified by OMB
Circular A-133, yet the PTD system had no record of the grantees’ audit reporting compliance.


                                                        42
                    Table 4: Threshold not met 7
                                                           Threshold not
                    Grantee     Fiscal      Total IHBG-
     Region                                                 met and not
                       ID       year       ICDBG funds
                                                              verified
                     1132         10             176,828
                       8          06             198,468
                       8          07             200,265
                      11          09             120,250
                      11          10             116,000        X
                      16          07              58,218
                      16          08             116,286
                      16          09              82,798
                      16          10              88,547
                      21          10             120,520
                      44          08             114,398
                      44          09              94,498
                      44          10             101,286
                      46          06             115,071
                      46          07             113,476
                      46          08              99,954
                      46          09             110,770
 Southern Plains      46          10             126,396
     ONAP             51          06              46,821
                      51          07              71,136
                      51          08              61,417
                      51          09              68,595
                      51          10              86,602
                      52          09             483,439        X
                      52          10             550,661
                      58          06              83,792
                      90          06       $     136,598
                      90          07             117,740
                      90          08             306,607
                      90          09             198,823
                      98          06             540,999        X
                      98          07           1,618,618        X
                      98          08           1,180,813        X
                      98          09           1,438,165        X
                      98          10             734,175        X
                      16          06             588,453
                      16          07             417,291
                      20          06             443,701        X
                      54          06             266,131
Eastern Woodlands
                      76          06             369,744
      ONAP
                      76          07             331,034
                      76          08             418,939
                      76          09             290,612
                      76          10             350,999



                                43
                                Table 4: Threshold not met 7
                                                                           Threshold not
                                Grantee      Fiscal      Total IHBG-
         Region                                                             met and not
                                   ID        year       ICDBG funds
                                                                              verified
                                   86          09              600,000
                                  149          08              340,371
                                  149          09              349,616
                                  149          10              401,047
                                  162          07              600,695
                                  167          08              421,596
                                  167          09              314,936
                       Totals                          $ 23,154,981              37




Table 5: Additional tribe audits accepted in lieu of tribally designated housing
                                  entity audits
         Region                           Grantee ID                     Fiscal year
                                              15                             09
     Southern Plains
                                              41                             08
                                             873                             08
                                             873                             09
                                             873                             10
       Southwest                             902                             07
                                             917                             07
                                             917                             10
                                             921                             09




                                             44
Appendix C

                                         CRITERIA

24 CFR 1000.544. What audits are required?
   The recipient must comply with the requirements of the Single Audit Act and OMB Circular
   A-133, which require annual audits of recipients that expend Federal funds equal to or in
   excess of an amount specified by the U.S. Office of Management and Budget, which is
   currently set at $300,000.

24 CFR 1000.548. Must a copy of the recipient’s audit pursuant to the Single Audit Act
relating to NAHASDA activities be submitted to HUD?
    Yes. A copy of the latest recipient audit under the Single Audit Act relating to NAHASDA
    activities must be submitted with the annual performance report.

Single Audit Act of 1984 (amended 1996), Section 7502(a)(1)(A)
   Each non-Federal entity that expends a total amount of Federal awards equal to or in excess
   of $300,000 (currently $500,000) or such other amount specified by the Director under
   subsection (a)(3) in any fiscal year of such non-Federal entity shall have either a single audit
   or a program-specific audit made for such fiscal year in accordance with the requirements of
   this chapter.

OMB Circular A-133, Subpart B, Section 200. Audit Requirements.
  a) Audit required. Non-Federal entities that expend $300,000 ($500,000 for fiscal years
     ending after December 31, 2003) or more in a year in Federal awards shall have a single
     or program-specific audit conducted for that year in accordance with the provisions of
     this part. Guidance on determining Federal awards expended is provided in §___.205.
  b) Single audit. Non-Federal entities that expend $300,000 ($500,000 for fiscal years
     ending after December 31, 2003) or more in a year in Federal awards shall have a single
     audit conducted in accordance with §___.500 except when they elect to have a program-
     specific audit conducted in accordance with paragraph (c) of this section.

OMB Circular A-133, Subpart D, Section 400. Responsibilities.
  c) Federal awarding agency responsibilities. The Federal awarding agency shall perform
     the following for the Federal awards it makes:
         1) Identify Federal awards made by informing each recipient of the CFDA [Catalog
             of Federal Domestic Assistance] title and number, award name and number,
             award year, and if the award is for R&D [research and development]. When some
             of this information is not available, the Federal agency shall provide information
             necessary to clearly describe the Federal award.
         2) Advise recipients of requirements imposed on them by Federal laws, regulations,
             and the provisions of contracts or grant agreements.
         3) Ensure that audits are completed and reports are received in a timely manner and
             in accordance with the requirements of this part.
         4) Provide technical advice and counsel to auditees and auditors as requested.


                                                45
           5) Issue a management decision on audit findings within six months after receipt of
              the audit report and ensure that the recipient takes appropriate and timely
              corrective action.
           6) Assign a person responsible for providing annual updates of the compliance
              supplement to OMB.

OMB Circular A-123. Introduction.
  Management has a fundamental responsibility to develop and maintain effective internal
  control. The proper stewardship of Federal resources is an essential responsibility of agency
  managers and staff. Federal employees must ensure that Federal programs operate and
  Federal resources are used efficiently and effectively to achieve desired objectives.
  Programs must operate and resources must be used consistent with agency missions, in
  compliance with laws and regulations, and with minimal potential for waste, fraud, and
  mismanagement.

OMB Circular A-123, Section III. Single Audit Act, as Amended.
  The Single Audit Act, as amended, requires financial statement audits of non-Federal entities
  that receive or administer grant awards of Federal monies. The financial statement audits
  include testing the effectiveness of internal control and determining whether the award
  monies have been spent in compliance with laws and regulations. Each Federal agency
  which provides Federal awards shall review the audits of the recipients to determine whether
  corrective actions are implemented with respect to audit findings.

NAHASDA, Title IV, Section 405. Review and Audit by Secretary.
  a) REQUIREMENTS UNDER CHAPTER 75 OF TITLE 31, UNITED STATES CODE.
     An entity designated by an Indian tribe as a housing entity shall be treated, for purposes
     of chapter 75 of title 31, United States Code, as a non-Federal entity that is subject to the
     audit requirements that apply to non-Federal entities under that chapter.

24 CFR 1000.530. What corrective and remedial actions will HUD request or recommend
to address performance problems before taking action under section 1000.532 or 1000.538?
    a) The following actions are designed, first, to prevent the continuance of the performance
       problem(s); second, to mitigate any adverse effects or consequences of the performance
       problem(s); and third, to prevent a recurrence of the same or similar performance
       problem. The following actions, at least one of which must be taken prior to a sanction
       under paragraph (b), may be taken by HUD singly or in combination, as appropriate for
       the circumstances:
           1) Issue a letter of warning advising the recipient of the performance problem(s),
               describing the corrective actions that HUD believes should be taken, establishing
               a completion date for corrective actions, and notifying the recipient that more
               serious actions may be taken if the performance problem(s) is not corrected or is
               repeated;
           2) Request the recipient to submit progress schedules for completing activities or
               complying with the requirements of this part;
           3) Recommend that the recipient suspend, discontinue, or not incur costs for the
               affected activity;



                                                46
          4) Recommend that the recipient redirect funds from affected activities to other
              eligible activities;
          5) Recommend that the recipient reimburse the recipient’s program account in the
              amount improperly expended; and
          6) Recommend that the recipient obtain appropriate technical assistance using
              existing grant funds or other available resources to overcome the performance
              problem(s).
   b) Failure of a recipient to address performance problems specified in paragraph (a) above
      may result in the imposition of sanctions as prescribed in §1000.532 (providing for
      adjustment, reduction, or withdrawal of future grant funds, or other appropriate actions),
      or §1000.538 (providing for termination, reduction, or limited availability of payments,
      or replacement of the TDHE [tribally designated housing entity]).

24 CFR 1000.532. What are the adjustments HUD makes to a recipient’s future year’s
grant amount under section 405 of NAHASDA?
   a) HUD may, subject to the procedures in paragraph (b) below, make appropriate
       adjustments in the amount of the annual grants under NAHASDA in accordance with the
       findings of HUD pursuant to reviews and audits under section 405 of NAHASDA. HUD
       may adjust, reduce, or withdraw grant amounts, or take other action as appropriate in
       accordance with the reviews and audits, except that grant amounts already expended on
       affordable housing activities may not be recaptured or deducted from future assistance
       provided on behalf of an Indian tribe.
   b) Before undertaking any action in accordance with paragraphs (a) and (c) of this section,
       HUD will notify the recipient in writing of the actions it intends to take and provide the
       recipient an opportunity for an informal meeting to resolve the deficiency. In the event
       the deficiency is not resolved, HUD may take any of the actions available under
       paragraphs (a) and (c) of this section. However, the recipient may request, within 30
       days of notice of the action, a hearing in accordance with §1000.540. The amount in
       question shall not be reallocated under the provisions of §1000.536, until 15 days after
       the hearing has been held and HUD has rendered a final decision.
   c) Absent circumstances beyond the recipient’s control, when a recipient is not complying
       significantly with a major activity of its IHP [Indian housing plan], HUD shall make
       appropriate adjustment, reduction, or withdrawal of some or all of the recipient's
       subsequent year grant in accordance with this section.

24 CFR 1000. 534. What constitutes substantial noncompliance?
HUD will review the circumstances of each noncompliance with NAHASDA and the regulations
on a case-by-case basis to determine if the noncompliance is substantial. This review is a two
step process. First, there must be a noncompliance with NAHASDA or these regulations.
Second, the noncompliance must be substantial. A noncompliance is substantial if:
    a) The noncompliance has a material effect on the recipient meeting its major goals and
        objectives as described in its Indian Housing Plan;
    b) The noncompliance represents a material pattern or practice of activities constituting
        willful noncompliance with a particular provision of NAHASDA or the regulations, even
        if a single instance of noncompliance would not be substantial;




                                               47
   c) The noncompliance involves the obligation or expenditure of a material amount of the
      NAHASDA funds budgeted by the recipient for a material activity; or
   d) The noncompliance places the housing program at substantial risk of fraud, waste or
      abuse.

CFR 1000. 538. What remedies are available for substantial noncompliance?
  a) If HUD finds after reasonable notice and opportunity for hearing that a recipient has
     failed to comply substantially with any provisions of NAHASDA, HUD shall:
          1) Terminate payments under NAHASDA to the recipient;
          2) Reduce payments under NAHASDA to the recipient by an amount equal to the
             amount of such payments that were not expended in accordance with
             NAHASDA;
          3) Limit the availability of payments under NAHASDA to programs, projects, or
             activities not affected by the failure to comply; or
          4) In the case of noncompliance described in §1000.542, provide a replacement
             TDHE for the recipient.
  b) HUD may, upon due notice, suspend payments at any time after the issuance of the
     opportunity for hearing pending such hearing and final decision, to the extent HUD
     determines such action necessary to preclude the further expenditure of funds for
     activities affected by such failure to comply.
  c) If HUD determines that the failure to comply substantially with the provisions of
     NAHASDA is not a pattern or practice of activities constituting willful noncompliance,
     and is a result of the limited capability or capacity of the recipient, HUD may provide
     technical assistance for the recipient (directly or indirectly) that is designed to increase
     the capability or capacity of the recipient to administer assistance under NAHASDA in
     compliance with the requirements under NAHASDA.
  d) In lieu of, or in addition to, any action described in this section, if HUD has reason to
     believe that the recipient has failed to comply substantially with any provisions of
     NAHASDA, HUD may refer the matter to the Attorney General of the United States,
     with a recommendation that appropriate civil action be instituted.

CFR 1003.703. Other remedies for noncompliance.
  a) Secretarial actions. If the Secretary finds a grantee has failed to comply with any
     provision of this part even after corrective actions authorized under §1003.701 have been
     applied, the following actions may be taken provided that reasonable notice and
     opportunity for hearing is made to the grantee. (The Administrative Procedure Act (5
     U.S.C. 551 et seq.), where applicable, shall be a guide in any situation involving
     adjudications where the Secretary desires to take actions requiring reasonable notice and
     opportunity for a hearing):
            1) Terminate the grant to the grantee;
            2) Reduce the grant to the grantee by an amount equal to the amount which was
                 not expended in accordance with this part; or
            3) Limit the availability of funds to projects or activities not affected by such
                 failure to comply; provided, however, that the Secretary may on due notice
                 revoke the grantee’s line of credit in whole or in part at any time if the




                                                48
               Secretary determines that such action is necessary to preclude the further
               expenditure of funds for activities affected by such failure to comply.
b) Secretarial referral to the Attorney General. If there is reason to believe that a grantee
   has failed to comply substantially with any provision of the Act, the Secretary may refer
   the matter to the Attorney General of the United States with a recommendation that an
   appropriate civil action be instituted. Upon such a referral, the Attorney General may
   bring a civil action in any United States district court having venue thereof for such relief
   as may be appropriate, including an action to recover the amount of the assistance
   furnished under this part which was not expended in accordance with this part or for
   mandatory or injunctive relief.




                                             49
